OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/WEST BANK
AND GAZA’S TECHNICAL AND
VOCATIONAL EDUCATION
AND TRAINING PROGRAM

AUDIT REPORT NO. 6-294-11-006-P
March 22, 2011




CAIRO, EGYPT 

Office of Inspector General


March 22, 2011

MEMORANDUM

TO:        	           USAID/West Bank and Gaza Director, Michael T. Harvey

FROM: 	                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	              Audit of USAID/West Bank and Gaza’s Technical and Vocational Education and
                       Training Program (Report No. 6-294-11-006-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and have included your responses in their
entirety at appendix II (attachments excluded). Based on your response and additional
information received, we have revised the amount of questioned costs in recommendation 6.

The report includes 10 recommendations for corrective action. On the basis of USAID/West
Bank and Gaza’s supporting documentation and planned action, we consider that final action
has been taken on one recommendation, management decision has been made on four
recommendations, and no management decision has been reached on the remaining five
recommendations. RIG/Cairo considers that final action has been taken for recommendation 6.
In addition, we consider that management decisions have been reached on recommendations
2, 3, 4, and 9, and that management decisions have not been reached on recommendations 1,
5, 7, 8, and 10.

Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer (M/CFO/APC) with the necessary documentation to achieve final action for
recommendations 2, 3, 4, and 9. Management decisions will be recorded for recommendations
1, 5, 7, 8, and 10 after USAID/West Bank and Gaza provides the additional information
described in detail on pages 16 to 18 of our audit report.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1a Nady El-Etisalat Street Off Ellaselki Street
New Maadi
Cairo, Egypt
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 



Audit Findings ................................................................................................................. 6 



          Indicators Do Not Effectively Measure Program Impact........................................ 6 



          Some Reported Program Results Were Not Reliable .......................................... 7 



          Two Lease Agreements Were Not Timely Vetted ................................................. 8 



          Slow Startup Limited Program Effectiveness ...................................................... 10 



          Program Lacks a Detailed Gender Strategy........................................................ 13 



Evaluation of Management Comments ....................................................................... 15 



Appendix I – Scope and Methodology ........................................................................ 19 



Appendix II – Management Comments ....................................................................... 21 



Appendix III – List of Program Indicators ................................................................... 30 



Appendix IV – Map of TVET League Institutions........................................................ 31 

SUMMARY OF RESULTS 

The population of the West Bank is young—40 percent of the population is under age
15. For 2009, the Palestinian Central Bureau for Statistics reported a 17.8 percent
unemployment rate for the West Bank. Unemployment in the Palestinian Territory was
concentrated among youth ages 15–24, for whom the rate was 38.9 percent.
Investment in workforce readiness is critical to offset the frustrations of unemployment
for large numbers of young people. To address these needs, USAID/West Bank and
Gaza has invested in the Technical and Vocational Education and Training (TVET)
Project. The project supports the high priority that the Palestinian Authority has put on
its National Education Strategy to reform the education system to be more responsive to
labor market needs and to better prepare Palestinian youth with relevant skills, such as
carpentry; auto mechanics; information technology; hotel management; and heating,
ventilation, and air conditioning.

The TVET sector in the West Bank faces challenges in meeting the expanding needs of
the Palestinian market and youth workforce development. The sector consists of both
public and private institutions. The TVET League is made up of 12 private institutions
with about 5,000 students, about half of the total sector (see map showing the location of
the institutions in Appendix IV). The sector as a whole is fragmented, without standard
curricula or certification, and faces many challenges, including the following:

      Weak links among businesses, professional associations, the public sector, and
       TVET institutions
      Lack of relevance of current TVET offerings to market demands/employment
       options
      Less than 5 percent of student population currently enrolled in TVET
      Lack of formal career counseling programs for youth of any age

USAID/West Bank and Gaza developed the TVET Program in 2005 to make an
important contribution to workforce development by strengthening and diversifying the
skills of young Palestinians through developing the TVET sector. This is the mission’s
first program in the sector. Through participation in the TVET Program, young
Palestinians can contribute to their economy and their families’ livelihoods. USAID/West
Bank and Gaza initially conceived the program to target TVET institutions within the
public system. However, upon the election of Hamas in 2006, the U.S. Government
instituted a “no contact” policy with the government ministries. Therefore, it redesigned
the program description to target only private TVET institutions—specifically, those 12
belonging to the existing TVET League.

The League was founded in 1998 in order to—
     Provide coordination among TVET institutions in Palestine
     Support TVET member institutions
     Exchange experiences among TVET institutions
     Support the implementation of a Palestinian national TVET strategy
     Raise community awareness of the importance of TVET
     Promote TVET as a viable career option




                                                                                        1
The program aims to improve the quality and relevance of education at the 12 TVET
League institutions in the West Bank and make TVET a viable, sought-after educational
option for Palestinian youth. As a first step, the program helped to legally register the
League so that it could serve as an official body to coordinate with the government.

To implement the program, the mission signed a 4-year, $8 million cooperative
agreement with a consortium of Save the Children Federation as a prime implementer in
partnership with Mercy Corps and the Young Men’s Christian Association (YMCA),
effective from September 2007 to September 2011. The partnership with YMCA was
terminated in spring 2008 owing to disagreements over roles and responsibilities. The
mission provided supplemental funding to the program in two amendments to the
agreement. First, on September 30, 2009, program funding was increased to $9 million.
Subsequently, on September 27, 2010, the mission increased the budget to $10 million.
As of September 30, 2010, total disbursements for the program were $4,245,397.

The TVET Program has four goals:

       Increased availability and access to TVET services
       Increased quality and relevance of TVET services
       Improved demand for TVET services
       A supportive environment for TVET services

These goals are to be achieved by—

       Improving the administrative capacity of the TVET League institutions
       Upgrading the TVET institutions’ facilities
       Institutionalizing education relationships with the private sector
       Developing and supporting a Career Resources Center
       Launching TVET awareness campaigns
       Building business knowledge and entrepreneurial skills

The Regional Inspector General/Cairo conducted this audit to answer the following
question:

   Is USAID/West Bank and Gaza’s Technical and Vocational Education and Training
    Program achieving its main goal of improving nongovernmental technical and
    vocational education and training in the West Bank?

Although the mission has begun making progress toward strengthening TVET in the West
Bank, delays in program implementation have lessened the positive impact of the program.
It is also difficult for the mission to measure the overall benefit of the program, as 26 of
the 28 indicators being tracked (see Appendix III) are only measuring outputs. The two
impact indicators have no reported annual results or baseline data.

Delays occurred for several reasons. First, weak coordination between USAID/West Bank
and Gaza, its implementing partner, Save the Children, and its subpartners, Mercy Corps
and YMCA, led to delays in defining the roles and responsibilities of the consortium of
implementers. In addition, Save the Children’s first program director was not fully
knowledgeable of USAID policies and regulations, which led to several problems in
complying with the terms of the Save the Children cooperative agreement. This lack of


                                                                                          2
expertise, along with high staff turnover, contributed to implementation challenges. The
slow start of the program has detracted from addressing the overarching issues of the
TVET sector. Furthermore, the lack of a gender strategy indicates a missed opportunity
for empowering Palestinian women.

The delays in implementing the program, especially in its first 2 years, have significantly
impacted the program’s effectiveness. USAID/West Bank and Gaza signed the agreement
with Save the Children in September 2007. By December 2009, just over halfway into the
life of the project, Save the Children had expended only $2,323,118, or 23 percent of the
overall program budget. In addition, while more than 60 percent of the program’s life-of-
project budget was allocated for direct program implementation costs, through December
2009, only about one-third of the funds expended went directly to program activities. The
rest of the expenditures were for administrative and indirect costs, as shown in Figure 1.

                Figure 1. Planned and Actual Expenditure Comparison

          Budgeted Ratios of                                 Actual Spending for
      Spending - Life of Project                                  First 2 Years

                                Program                                           Program
           13.7%
                                Costs                                             Costs
                                                              14.3%
                                Admin                                 33.6%       Admin
        26.1%                   Costs                                             Costs
                     60.1%
                                Indirect                                          Indirect
                                Costs                        52.0%
                                                                                  Costs




After a June 2009 midterm review highlighting the program’s implementation challenges,
the mission decided to increase the TVET Program budget for two specific activities. First,
the mission provided funding for a TVET data portal to be implemented by Mercy Corps,
whose activities had generally been progressing more smoothly than those of Save the
Children. Second, additional funding went to a new school-to-career activity on the basis of
previous successes experienced by Save the Children in implementing similar activities.

In November 2009, more than 2 years after the program started, USAID finally approved an
implementation plan for the TVET Program, with approved indicators and targets. Owing to
this delay in the approval of the implementation plan, what had been designed as a 4-year
program essentially became a 2-year program.

The program’s accomplishments to date include legally registering the TVET League,
renovating and upgrading some workshops, establishing a Cisco1 Regional Academy with
trained instructors, and delivering some equipment to the institutions. Additionally,
USAID/West Bank and Gaza has obligated all of the program’s funds, and Save the

1
  Cisco is a multinational corporation that specializes in networking technology. It collaborates
with organizations around the world to help students prepare for information and communication
technology jobs and career certifications.


                                                                                                    3
Children has developed a detailed plan for expending the remaining direct program costs
by the September 30, 2011, agreement completion date. However, the shortened timeline
undermined some fundamental activities that required a longer period to fully implement,
such as building relationships with the public and private sectors, changing the public
perception of vocational and technical education, and providing for the future sustainability
of the TVET League.

In summary, issues identified during the audit include the following:

      Indicators Do Not Effectively Measure Program Impact (page 6). 

      Some Reported Program Results Were Not Reliable (page 7). 

      Two Lease Agreements Were Not Timely Vetted (page 8). 

      Slow Startup Limited Program Effectiveness (page 10). 

      Program Lacks a Detailed Gender Strategy (page 14). 


The audit recommends that USAID/West Bank and Gaza do the following to improve the
effectiveness of the TVET Program and future programs:

   	 Strengthen Technical and Vocational Education and Training Program results
      reporting to ensure that indicators are effective in measuring goal achievements
      and that baseline data are collected to measure impact (page 7).
   	 Provide guidance to agreement/contracting officer’s technical representatives
      and partners to establish improved standards for acceptance of work plans and
      reports, as well as developing guides for preparing written documents (page 8).
    Complete a performance management plan that includes detailed definitions of
      all Technical and Vocational Education and Training Program indicators (page 8).
    Verify and correct any errors in the reported results data for the Technical and
      Vocational Education and Training Program (page 8).
   	 Revise Mission Order 21 to include provisions to report violations of the mission’s
      antiterrorism requirements to the mission director and the Regional Inspector
      General/Cairo (page 10).
   	 Determine the allowability of $16,063 for leases signed by Save the Children
      under cooperative agreement no. 294-A-00-07-00210-00 with entities that were
      not vetted prior to signing the lease subcontracts and collect from Save the
      Children any amount determined to be unallowable (page 10).
   	 Develop a plan with milestones to prioritize Technical and Vocational Education
      and Training Program activities to maximize the impact of the program during its
      last year, to include implementing safety measures as soon as possible and
      providing for the sustainability of the Technical and Vocational Education and
      Training League (page 13).
   	 Develop and implement quality standards for accepting implementation plans
      and policies for suspension of payments to awardees without approved
      implementation plans (page 13).
   	 Require Save the Children to obtain gender strategies from each of the benefiting
      Technical and Vocational Education and Training institutions (page 14).
   	 Provide guidance to its staff to reemphasize the requirements of Automated
      Directives System 201 to implement a gender strategy in all of its activities (page
      15).




                                                                                           4
Detailed findings appear in the following section. The audit’s scope and methodology
are described in Appendix I, and the mission’s comments will be included in Appendix II
in the final report.




                                                                                     5
AUDIT FINDINGS

Indicators Do Not
Effectively Measure
Program Impact

Both implementing partners and USAID missions have a responsibility to set appropriate
indicators and targets and to review and assess their relevancy periodically. According
to Performance Monitoring and Evaluation TIPS No. 8, “Establishing Performance
Targets,” a supplemental reference to the Automated Directives System (ADS) 200
series on USAID programming policy, targets should be based on analysis of what is
realistic to achieve, given factors such as the stage of program implementation,
resources available, and country conditions. Additionally, ADS 203.3.2.2 states that
USAID missions and offices should use performance information to assess progress in
achieving results and to make management decisions. ADS 200.2.b, “Primary
Responsibilities,” states that USAID missions must develop the capacity to manage
foreign assistance programs and ensure that teams have the necessary expertise,
authorities, resources, and support to achieve their objective. In addition, TIPS No. 12,
“Characteristics of Good Indicators,” includes “[t]he degree to which performance
indicators and their related data accurately reflect the process or phenomenon they are
being used to measure” and “the level of comparability of performance indicators and
data over various measurement contexts.”

Only 2 of the 28 indicators, namely Percentage of employers hosting TVET apprentices
who are satisfied to very satisfied and Percentage of students who are favorable to
receive TVET training (see Appendix III, items 27 and 28), that the mission tracks for the
TVET Program are impact indicators. Moreover, these indicators do not have baseline
data, which undermines their ability to reflect any change occurring as a result of the
program. As a whole, the indicators do not provide meaningful measures for meeting
the overall goals of the TVET Program.

Owing to the slow startup and lack of organization at the beginning of the program, the
implementing partner did not have approved program indicators until the third year of the
program. Once the indicators were approved, Save the Children did not conduct the
necessary studies to establish baseline data for the two impact indicators. Save the
Children has contracted for a study that is developing baseline data for one of these
indicators, but the results of this study were still in draft form with less than a year to go
in the 4-year life of the program.

In 2009, Save the Children submitted a revised performance management plan (PMP)
that included additional impact indicators: Increase in the percentage of women enrolled
in TVET and Percent increase of the League’s contribution in its own annual operational
budget. Mission management, however, said there were too many impact indicators and
reduced the indicators to align them with the Department of State’s Office of the Director
of U.S. Foreign Assistance annual reporting requirements. Moreover, USAID/West Bank
and Gaza mission officials stated that the mission did not have confidence in Save the
Children’s ability to achieve and measure these results.


                                                                                            6
As a result, Save the Children’s approved PMP lacked a sufficient number of impact
indicators that cover all the different activities being implemented under the TVET
Program. Additionally, the implementing partner did not conduct preliminary studies and
collect baseline data for the impact indicators that were included in the PMP.

Consequently, both USAID/West Bank and Gaza and its implementing partner have had
difficulty measuring whether the TVET Program is achieving the desired results. To
ensure that the mission has the quality data it needs to evaluate the impact of the TVET
Program, the audit makes the following recommendation:

   Recommendation 1. We recommend that USAID/West Bank and Gaza
   strengthen Technical and Vocational Education and Training Program results
   reporting to ensure that indicators are effective in measuring goal achievements
   and that baseline data are collected to measure impact.

Some Reported Program Results
Were Not Reliable
According to Performance Monitoring and Evaluation TIPS No. 7 (cited in ADS 203),
each performance indicator in a PMP needs a detailed definition. Furthermore, an
effective performance monitoring system needs to plan not only for the collection of data,
but also for data analysis, reporting, review, and use.

The TVET PMP includes definitions for only two operational plan output indicators and
two management outcome-level indicators. There are no definitions for the other 24
indicators, which makes assessing program results difficult. Furthermore, some of the
reported data were inaccurate. The audit team found issues with the following
indicators:

   	 Number of persons participating in U.S. Government-funded workforce
      development programs: Save the Children was unable to provide adequate
      documentation to support the reported totals. Save the Children officials
      explained that data reported to the mission were from the first year’s results and
      have been adjusted each year, since there is generally minimal year-to-year
      variance. In fact, Save the Children reported a total of exactly 1,303 students
      and 169 instructors at the TVET institutions for each year of the program but
      could not provide supporting documentation for the reported amounts for either
      fiscal year (FY) 2009 or FY 2010.

   	 Number of new TVET curricula developed and/or adapted to market demand:
      Save the Children reported developing or adapting two curricula in FY 2010;
      however, neither of the curricula should have been counted. They have only
      been made available, not developed or adapted.

   	 Number of mass media reports on TVET and School to Career (STC) activities:
      This indicator name does not adequately define a mass media report. Therefore,
      Save the Children and the mission were unable to document what should or
      should not be counted, such as billboards.



                                                                                        7
These weaknesses in the results-reporting process occurred because the agreement
officer’s technical representative (AOTR) did not require the implementing partner to
correct deficiencies in the work plans prior to their approval. The TVET Program work
plans were poorly written, fragmented, and difficult to follow in terms of actual activities,
timeline, progress, and analysis.      Consequently, the mission cannot coherently
demonstrate the program’s accomplishments and status. Therefore, the audit makes
the following recommendations:

    Recommendation 2. We recommend that USAID/West Bank and Gaza provide
    guidance to agreement/contracting officer’s technical representatives and
    partners to establish improved standards for acceptance of work plans and
    reports, as well as developing guides for preparing written documents.

    Recommendation 3. We recommend that USAID/West Bank and Gaza
    complete a performance management plan that includes detailed definitions of all
    Technical and Vocational Education and Training Program indicators.

    Recommendation 4. We recommend that USAID/West Bank and Gaza verify
    and correct any errors in the reported results data for the Technical and
    Vocational Education and Training Program.

Two Lease Agreements
Were Not Timely Vetted
Executive Order 13224 prescribes a number of measures intended to prevent funding
going to terrorist organizations or individuals involved in terrorism. To implement the
Executive order, USAID/West Bank and Gaza’s Mission Order 21, “Anti-Terrorism
Procedures,” dated October 3, 2007, provides procedures for the mission to follow to
prevent it from inadvertently funding terrorist organizations. Procedures include vetting
all contractors and subcontractors with awards in excess of $25,000, recipients of
assistance instruments, trainees, other direct recipients of cash or in-kind assistance,
and key individuals of vetted organizations.

Save the Children signed two leases, one in 2007 and the other in 2008, for residences
of the Save the Children country director and TVET program director. These leases,
valued at $28,9002 and $88,800, respectively, were both funded by USAID/West Bank
and Gaza and exceeded the $25,000 threshold established in Mission Order 21, but
Save the Children did not submit them to the mission for vetting before signing them. Of
the total lease amounts, Save the Children charged $16,063 to USAID/West Bank and
Gaza’s TVET Program.

As a result, the TVET Program was vulnerable to inadvertently providing material
support to organizations or persons who commit, threaten to commit, or support
terrorism, without the knowledge of USAID/West Bank and Gaza. Although there was
some written internal discussion within USAID/West Bank and Gaza regarding the
potential disallowance of these costs, the mission did not take any further action other
than to vet them after the fact.

2
 Although official mission records document this lease amount as $28,900, other mission records
document the amount as $39,100.


                                                                                             8
According to mission officials and correspondence with the implementing partner, the
Save the Children program director and program manager at the time were unaware that
the lease agreements were covered by the vetting requirements of Mission Order 21
because of their limited experience with USAID/West Bank and Gaza regulations. This
unfamiliarity with the compliance requirements was also a pattern in terms of the
implementing partner not properly completing partner information forms used for
collecting vetting data. Although the program’s first AOTR stated that the implementer
required mission assistance to complete the partner information forms, in this case, the
AOTR’s monitoring did not ensure that the implementer vetted the two leases.

USAID/West Bank and Gaza was not aware of this situation until its Office of Contracts
Management (OCM) conducted a compliance review in March 2009 and discovered the
two unvetted leases. Subsequently, the mission vetted the two leases and obtained
clearance for the two awards. By the time they were vetted, one lease had already
expired and the other was terminated owing to the landlord’s refusal to sign the revised
lease that included the antiterrorism clause.

Mission Order 21 provides detailed guidance on which awards, individuals, and
organizations need to be vetted, but it does not provide guidance on what to do when
the vetting procedures are not followed. For example, it does not provide guidance on
reporting noncompliance with vetting requirements, nor does it mention that
noncompliant costs could potentially be disallowed.3 In these instances, OCM reported
the implementer’s noncompliance with USAID’s antiterrorism requirements to the
implementing partner and the AOTR, but was not able to provide any documentation to
indicate that the office elevated or reported this noncompliance to mission management
for action.

In the past, OCM’s compliance specialist had provided mission management periodically
with summary reports of instances of noncompliance with vetting requirements;
however, the compliance specialist position has been vacant since March 1, 2010, and
mission management is no longer receiving these reports. According to one mission
management official, since the compliance specialist position became vacant, the
compliance reviews have been carried out by a public accounting firm, but it has not
been providing updates to mission management as had occurred in the past.

Moreover, mission officials did not notify the Regional Inspector General responsible for
oversight of the mission’s nonfederal audit program, which includes reviewing awards for
compliance with the mission’s implementers’ use of established antiterrorism measures.

Although in these cases awardees were eventually vetted with no derogatory
information, USAID/West Bank and Gaza’s antiterrorism measures should be
strengthened. If the mission’s implementers are made aware that USAID can disallow
funds paid to implementing partners that do not comply with antiterrorism measures,
implementers may have a stronger motivation to ensure that all awards are vetted.
Because subsequent guidance has been provided to partners regarding the potential
disallowance of costs, the audit team is not making any recommendations related to this

3
  Subsequent to this noncompliance occurrence, in June 2010 USAID/West Bank and Gaza
issued Mission Notice 2010-WBG-10, which informed its partners of the potential disallowance of
costs resulting from failure to comply with vetting requirements.


                                                                                              9
area. However, to further strengthen the mission’s efforts to avoid inadvertently
providing material support to organizations or persons who commit, threaten to commit,
or support terrorism and to ensure that USAID/West Bank and Gaza’s management and
the Office of Inspector General4 are notified in a timely manner to provide oversight as
appropriate of instances of noncompliance with Mission Order 21, the audit makes the
following recommendations:

    Recommendation 5. We recommend that USAID/West Bank and Gaza revise
    Mission Order 21 to include provisions to report violations of the mission’s
    antiterrorism requirements to the mission director and the Regional Inspector
    General/Cairo.

    Recommendation 6. We recommend that USAID/West Bank and Gaza
    determine the allowability of $16,063 for lease costs charged by Save the
    Children to USAID/West Bank and Gaza under cooperative agreement no. 294-
    A-00-07-00210-00 for payments to entities that were not vetted prior to signing
    the lease subcontracts and collect from Save the Children any amount
    determined to be unallowable.

Slow Startup Limited Program
Effectiveness
The Government Accountability Office's Standards for Internal Control in the Federal
Government (GAO/AIMD-00-21.3.1 (11/99)) state that an entity’s internal control
should provide reasonable assurance that the entity’s resources are being used
effectively and efficiently (p.4-5). It further states that qualified and continuous
supervision should be provided to ensure that internal control objectives are achieved
(p.13). Additionally, ADS 202.3.7 establishes the responsibility of the mission and its
assistance objectives teams to manage the resources available to them so that planned
outputs and results are achieved in a cost-effective and timely manner.

USAID/West Band and Gaza signed the TVET cooperative agreement with Save the
Children on September 30, 2007. Save the Children’s proposal for the TVET Program
included a consortium of three organizations to implement the program, and Save the
Children signed subawards with Mercy Corps and YMCA in October 2007.

After the subawards were signed, there was considerable disagreement, especially
between Save the Children and YMCA, as to their roles, relationships, and
responsibilities. For example, YMCA expected its staff to spend most of their time in the
field, but Save the Children expected them to spend most days in the Save the Children
office. The partners could not reach a compromise and YMCA eventually dropped out,
leaving Save the Children to carry out the activities previously assigned to YMCA.




4
  In FY 2004, as part of the mission’s controls, the Regional Inspector General/Cairo started its
financial audit program to ensure that the mission is in compliance with the established policies
and procedures. The financial audit program covers all contractors and grantees, and significant
subcontractors and subgrantees, under the West Bank and Gaza Program, at least on an annual
basis.


                                                                                               10
USAID/West Bank and Gaza reported that a lack of expertise of the original staff hired
by Save the Children to implement the program as well as the subsequently high staff
turnover added to the delay in program implementation. Throughout the 3-year life of
the project so far, there have been three country directors, two deputy country directors
(currently vacant), two project directors, three program managers, three reporting
officers, and three AOTRs. According to the original AOTR, this turnover resulted in
minimal quality assurance or institutional memory. The original project director did not
have the expertise to manage the program and comply with USAID regulations. The
initial reports and plans submitted to USAID were low quality and often late. The AOTR
would send them back for correction, but eventually gave the go-ahead for certain
aspects of the program even without an approved implementation plan or indicators.

Initial efforts to assess the needs of the program were not conducted effectively. Save
the Children commissioned a study to be conducted during the first year of the program
to determine in which areas to focus the TVET Program efforts. However, the partners
later determined this assessment to be unacceptable, as its scope was not broad
enough to provide useful information. Therefore, Save the Children contracted a second
study to provide a more in-depth gap analysis of the needs of the private TVET sector in
the West Bank. The results of this study are currently in draft, even though the program
is in its last year. As a result, the study will not provide USAID/West Bank and Gaza
mission staff with evidentiary data to help them determine appropriate resource
allocations. However, if properly disseminated, the study will be useful in the future to
help the TVET institutions, Ministry of Labor, and the Ministry of Education and Higher
Education provide market-driven vocational and technical training opportunities.

The TVET Program was delayed for several reasons. First, the implementer was not
fully aware of USAID regulations, policies, and procedures, which led to the program’s
first AOTR having to spend more than the anticipated amount of time with the
implementing partner to explain how to complete administrative and reporting functions.
In some instances, the mission did not use its management authorities to ensure that the
implementer developed acceptable implementation plans and annual reports.
Eventually the Education team leader and ultimately the mission director intervened, but
their efforts did not improve quality. In addition, the implementer did not clearly delineate
the roles and responsibilities with its consortium partners under the agreement.
Consequently, the mission did not approve an annual implementation plan for the
program until November 2009—more than 2 years after the start of the program. These
delays have had several effects on the program.

The slow startup has caused the project to be implemented over a shorter timeframe
than originally planned. As a result, some program activities may have insufficient time
to achieve goals or results. For example, only recently has procurement begun for the
machinery and equipment being provided to the participating TVET institutions. As of
September 30, 2010, Save the Children has expended just over 1 percent of the
$820,000 budgeted for its purchase of machinery and equipment to be used for
instruction at the TVET institutions.5 Although the mission programmed most of these
funds for purchases to be completed by January 2011, there will be little time once the
machinery and equipment are delivered to assist institutions to adapt curricula for the
use of these items and to ensure that the proper safety and security measures are in

5
 Under its subagreement with Save the Children, Mercy Corps has completed procurement of an
additional $140,000 for information technology-related training equipment purchases.


                                                                                          11
place prior to using the machinery and equipment. The program also includes a
$205,000 safety and security component, which to date is only in the initial phase. This
is also a potential liability if Save the Children provides new equipment and renovations
before the proper safety measures are in place.




                A student at the Al-Bir School uses carpentry equipment
               without gloves in a workshop renovated as part of the TVET
                Program. (Photograph by the Office of Inspector General,
                                     October 2010.)


Although students had expected to use this new equipment in their courses, some of the
students graduated from the institutions before the equipment arrived. Current students
are still using antiquated equipment not relevant to today’s job market. For example, at
one school, students have been waiting for 18 months for new heating, ventilation, and
air conditioning (HVAC) equipment. USAID funded the renovation of the classroom
space in anticipation of the receipt of the equipment, but the new space is not being
used. At another school, auto repair students expressed disappointment that the
anticipated equipment has not arrived, because the school is still training students on
equipment that is not as relevant to today’s job market.

Another effect of the slow startup is that the program has not sufficiently addressed
sustainability issues. One of the main goals of the TVET Program was to strengthen the
TVET League’s ability to serve as an official coordinating body. The program’s third
year implementation plan stated, “The concrete establishment of the League as an
institution, committed and able to take on the assigned responsibilities ensures the
sustainability of the TVET Program. After the end of the program, it is anticipated that
the league will be financially independent and actively leading in the delivery of services
and maintaining and building on existing relationships.”

As part of this agreement, USAID/West Bank and Gaza, through Save the Children,
assisted the TVET League to become a registered legal entity with the Palestinian
Authority government in 2008. However, owing to the slow development of the program,
other activities to enhance the viability and sustainability of the League have not been
accomplished.




                                                                                        12
Since 2009, USAID/West Bank and Gaza has been funding the TVET League to pay for
its leased office space, two administrative employees, and office equipment.
Additionally, the implementing partner has set aside funding to pay the salaries of the
executive director, financial consultant, human resources consultant, and an accountant,
who have yet to be hired. However, neither the League nor USAID/West Bank and
Gaza has developed or agreed to develop a program continuity or sustainability plan to
maintain funding levels after the agreement ends in September 2011. Although the
TVET League has discussed future funding with other donors, this solution does not
provide for the future of the League as a self-sustaining organization.

Furthermore, only 6 of the 20 tested indicator results met the targets for FYs 2009 and
2010, also due in part to the slow program startup (please refer to the previous findings
on program indicators).

Despite the slow startup, USAID/West Bank and Gaza has obligated all of the program’s
funds, and Save the Children has developed a detailed plan for expending the remaining
direct program costs by the agreement completion date. However, to help address the
above problems and prevent them from occurring in future USAID/West Bank and Gaza
programs, the audit makes the following recommendations:

   Recommendation 7. We recommend that USAID/West Bank and Gaza develop
   a plan with milestones to prioritize Technical and Vocational Education and
   Training Program activities to maximize the impact of the program during its last
   year, to include implementing safety measures as soon as possible and providing
   for the sustainability of the Technical and Vocational Education and Training
   League.

   Recommendation 8. We recommend that USAID/West Bank and Gaza develop
   and implement quality standards for accepting implementation plans and policies
   for suspension of payments to awardees without approved implementation plans.


Program Lacks a Detailed
Gender Strategy
According to ADS 201.3.9.3, gender analyses are mandatory for strategic plans,
assistance objectives, and projects/activities. ADS 201.3.9.3 further states, “gender
issues are central to the achievement of strategic plans and Assistance Objectives (AO)
and USAID strives to promote gender equality, in which both men and women have
equal opportunity to benefit from and contribute to economic, social, cultural, and
political development; enjoy socially valued resources and rewards; and realize their
human rights.”

According to Save the Children, there were only 260 female students, or 20 percent of
the 1,303 student beneficiaries reported for FY 2010. USAID/West Bank and Gaza did
not conduct a gender analysis in designing the TVET Program. Other than the
requirement to segregate reported results by gender, the mission did not include a
gender analysis or strategy in its agreement with Save the Children.




                                                                                       13
USAID/West Bank and Gaza conducted an internal midterm review in July 2009 and
concluded that the program lacked a clear and systematic approach to addressing
gender and that more emphasis should be placed on enrolling females in nontraditional
vocational training environments. However, USAID/West Bank and Gaza did not follow
up on this recommendation.

Save the Children has its own gender policy, but it did not develop a specific strategy to
address gender integration issues in the TVET Program. Some institutions made efforts
to include female students in certain TVET League activities supported by the program.
However, at other institutions, all students in some courses in traditionally male
vocations, such as carpentry, auto mechanics, and HVAC, were male. Some institution
officials told the audit team that female students were encouraged to study more
traditional female vocations, such as craft-making.

The TVET Program did not have a clear strategy for gender integration and, as a result,
opportunities may have been missed for females to participate in nontraditional roles in
the technical and vocational education sector. A comprehensive strategy for addressing
gender inequities in vocational and technical education would help the TVET institutions
to provide a roadmap for their future success as institutions. To ensure that the TVET
institutions benefit from a fully developed gender integration strategy, even after the
USAID/West Bank and Gaza program ends, the audit makes the following
recommendations:

   Recommendation 9. We recommend that USAID/West Bank and Gaza require
   Save the Children to obtain gender strategies, including gender targets, from
   each of the benefiting Technical and Vocational Education and Training
   institutions.

   Recommendation 10. We recommend that USAID/West Bank and Gaza
   provide guidance to its staff to reemphasize the requirements of Automated
   Directives System 201 to implement a gender strategy in all of its activities.




                                                                                       14
EVALUATION OF
MANAGEMENT COMMENTS
USAID/West Bank and Gaza’s comments and planned actions are partially responsive
to the report recommendations. On the basis of USAID/West Bank and Gaza’s planned
actions, RIG/Cairo considers that final action has been taken for recommendation 6, and
management decisions have been reached on recommendations 2, 3, 4, and 9.
Management decisions have not been reached on recommendations 1, 5, 7, 8, and 10.

Regarding recommendation 1, mission officials partially agreed with the
recommendation to ensure that indicators are effective in measuring goal achievements
and that baseline data are collected to measure impact. However, the mission’s
response focused on improving the reporting for the two existing impact indicators and
did not address the overall issue of not having impact indicators that cover most of the
goals and important activities being implemented. To be more useful, the revised or new
indicators should more directly measure whether the program’s goals, such as increased
access, quality, and demand for TVET services, have been achieved. As a result, a
management decision has not been achieved for recommendation 1. A management
decision will be made when the mission develops a more complete set of impact
indicators that measure the achievement of the program goals mentioned above.

Although the mission does not express agreement with recommendation 2 to provide
guidance to agreement/contracting officer’s technical representatives (AOTRs/COTRs)
and partners to establish improved standards for work plans and reports and to develop
guides for preparing written documents, its plan of action does address the
recommendation. By April 29, 2011, USAID/West Bank and Gaza's Director of the
Office of Contracts Management (OCM) plans to issue a reminder, to AOTRs/COTRs of
their responsibilities, and will conduct sessions with AOTRs/COTRs for sharing
experiences related management oversight over annual work plans. On the basis of
these planned actions, a management decision has been achieved for recommendation
2.

For recommendation 3 to complete a performance management plan that includes
detailed definitions of all TVET Program indicators, the mission has agreed to provide
clear definitions for the three indicators specifically mentioned in our audit report.
USAID/West Bank and Gaza plans to work with Save the Children to review and revise
other TVET PMP indicators to clarify definitions by April 29, 2011. On the basis of these
planned actions, a management decision has been reached for recommendation 3.

Regarding recommendation 4, USAID/West Bank and Gaza has begun addressing the
recommendation to verify and correct any errors in the reported results data for the
TVET Program. Its implementer, Save the Children, has corrected the reported data for
the fourth quarter of FY 2010, and the mission plans to request that Save the Children
submit a plan by April 1, 2011, to review and correct the reported results for the program
by September 29, 2011. Consequently, the mission has reached a management
decision for recommendation 4.




                                                                                       15
The mission partially agreed with recommendation 5 to revise Mission Order 21 to
include provisions to report violations of the mission’s antiterrorism requirements to the
mission director and RIG/Cairo. In its response to our draft audit report, the mission
agreed to begin reporting instances of noncompliance to RIG/Cairo, but concluded that it
was not necessary to change its policies for reporting noncompliance to mission
management. The recommendation addresses reporting requirements and the need to
increase implementer’s awareness to increase compliance with laws, regulations, and
procedures.

In the past, USAID/West Bank and Gaza's OCM’s compliance specialist provided
mission management summary reports of instances of noncompliance with vetting
requirements periodically. However, since this position has been vacant since March 1,
2010, mission management no longer receives these reports. To fill the void, a public
accounting firm has conducted some compliance reviews but has not provided periodic
updates to mission officials as recurring management oversight. Reinstituting this
practice would meet the needed reporting requirements envisioned under our
recommendations.

Moreover, it would be beneficial for USAID/West Bank and Gaza's implementing
partners and subpartners to be aware that violations of the antiterrorism requirements
will be reported to mission management and to the RIG/Cairo. The knowledge of the
consequences of such violations will only help ensure compliance with the requirements
and further reduce the likelihood that U.S. Government funds will be provided to
terrorists. Additionally, establishing formal procedures within Mission Order 21 to report
noncompliance with antiterrorism measures will help ensure that the reporting of
violations continues when staffing changes occur in the mission. On the basis of the
above, a management decision has not been achieved for recommendation 5. A
management decision can be reached when the mission provides a firm plan of action
for revising Mission Order 21.

For recommendation 6, to determine the allowability of $16,063 for lease costs charged
to USAID/West Bank and Gaza under the cooperative agreement for payments to
entities that were not vetted prior to signing the lease subcontracts and collect any
amount determined to be unallowable, USAID/West Bank and Gaza mission officials
determined that the entire amount was allowable. Therefore, the mission has taken final
action for recommendation 6.

In its response, USAID/West Bank and Gaza officials partially addressed
recommendation 7 to develop a plan with milestones to prioritize the TVET Program
activities to maximize the impact of the program during its last year, to include
implementing safety measures as soon as possible and providing for the sustainability of
the TVET League. The mission submitted a prioritized plan with clear milestones for the
remaining months of the program, including a time schedule for the implementation of
the safety and security measures for each participating TVET school. In terms of
sustainability, the mission listed current activities designed to build the League’s
institutional capacity. Mission officials stated that it expects that these activities will
provide a foundation for the League to achieve financial independence in the future and
will achieve financial sustainability from proceeds from annual contributions of member
institutions, revenues from fees for services, and participation in annual exhibitions, as
well as sponsorships from the private sector. USAID/West Bank and Gaza did not
provide any additional evidence that these measures are progressing or that the League


                                                                                        16
will be in a position to obtain these sources of funding at a level that will ensure its
sustainability in the future. Therefore, without a developed financial plan, USAID/West
Bank and Gaza has not reached a management decision on recommendation 7.

The mission did not agree with recommendation 8 to develop and implement quality
standards for accepting implementation plans and policies for suspension of payments
to awardees without approved implementation plans. Regarding the implementation of
quality standards, USAID/West Bank and Gaza mission officials state that instead of
developing quality standards for acceptable implementation plans, officials plan to
remind COTRs and AOTRs that partners need to submit implementation plans on time,
in accordance with the terms of their awards and approved in a timely manner.
However, the mission’s proposed action does not address the lack of quality control
standards for such plans.

RIG/Cairo disagrees with the mission’s comments that it does not have the authority to
suspend payments to partners who are incurring costs without having an approved work
plan. As discussed on page 3 of the report, Save the Children’s slow startup resulted in
an inefficient and unreasonable amount of spending during the first 2 years of the
program. The inefficiencies were a result of Save the Children continuing to incur its
administrative and program costs without the benefit of an approved work plan and with
limited implementation of program activities. As a result, the amount of costs incurred
should be evaluated based on the reasonableness requirements of the applicable cost
principles. If found to be unreasonable, it is within the scope of the Agreement Officer's
authority to disallow such costs.

Consequently, USAID/West Bank and Gaza has not reached a management decision for
recommendation 8. To reach a management decision, the mission needs to develop
quality standards for the development of work plans which will ensure the quality of the
plans to be submitted. Second, in its procedures, the mission should include the
provision for suspending or disallowing payments to partners when costs incurred are
not reasonable, as illustrated in the example in this report when a partner incurred
significant costs with no approved work plan.

In response to recommendation 9, to require Save the Children to obtain gender
strategies, including gender targets, from each of the benefiting TVET institutions,
USAID/West Bank and Gaza has worked with Save the Children to hire a subcontractor
to develop plans for each institution that cover, among other things, gender issues and
the readiness of institutions to address gender in institution policies and programming.
The target date for completion of these plans is July 29, 2011. In addition, by April 29,
2011, the TVET League plans to form a gender committee to work toward inclusiveness
of women in TVET institutions. Moreover, by that same date the League plans to
provide training on gender issues to TVET staff. On the basis of the planned actions,
 the mission has reached a management decision for recommendation 9.

In response to recommendation 10 to provide guidance to its staff to reemphasize the
requirements of ADS 201 to implement a gender strategy in all of its activities, the
mission stated that it is drafting a mission order to incorporate the requirements of the
new Global Acquisition and Assistance System to be completed by April 29, 2011. As
part of the mission order, the requirements for a gender analysis will be included. The
mission program office also plans to reinforce the need for gender strategies in all
activities as part of the process of preparing the mission's submission to the FY 2011


                                                                                       17
operational plan. However, the mission does not establish a target date for completing
this action. Therefore, until a target completion date can be established, the mission has
not reached a management decision for recommendation 10.




                                                                                       18
                                                                                APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Cairo (RIG/Cairo) conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The purpose of this audit was to
determine whether USAID/West Bank and Gaza’s Technical and Vocational Education
and Training (TVET) Program is achieving its main goal of improving nongovernmental
technical and vocational education and training in the West Bank. No previous audits
addressed the areas reviewed.

The scope of the audit covered reported results for (FYs) 2009 and 2010. RIG/Cairo
performed this audit at USAID/West Bank and Gaza, the offices of the implementing
partner, Save the Children, and its subpartners, Mercy Corps and the Young Men’s
Christian Association (YMCA), from October 1 to November 23, 2010. We also conducted
site visits to 6 of the 12 TVET League institutions throughout the West Bank. In planning
and performing the audit, we assessed internal control related to documentation and
data verification, reporting, supervisory and management review, and review of
performance measures and indicators.

During our site visits, we relied on Save the Children staff as translators to conduct
interviews in Arabic with certain local officials and beneficiaries. Additionally, we relied on
Save the Children staff to translate source documents that supported the reported indicator
results.

Total disbursements for the program as of September 30, 2010, were $4,245,397.

Methodology
To answer the audit objective, we first identified the program’s main goals and significant
program risks. We met with key personnel at USAID/West Bank and Gaza, Save the
Children, Mercy Corps, and the YMCA. We reviewed relevant documentation provided
by USAID/West Bank and Gaza and Save the Children. We also reviewed the terms of
the agreement and applicable policies and procedures. We gained an understanding of
the program design and how USAID planned to monitor and measure the results.

We reviewed compliance by the mission and Save the Children with Executive Order
13224, “Blocking Property and Prohibiting Transactions with Persons Who Commit,
Threaten To Commit, or Support Terrorism,” and with USAID/West Bank and Gaza
Mission Order No. 21, “Anti-Terrorism Procedures.” Our antiterrorism compliance
testing included reviews of relevant documentation such as USAID/West Bank and
Gaza’s agreement with Save the Children, subcontracts with Mercy Corps and YMCA,
and that USAID/West Bank and Gaza vetted institutions, trainees, and key personnel of
subcontractors to ensure that they met the antiterrorism criteria. We also interviewed


                                                                                            19
the USAID/West Bank and Gaza vetting specialist and followed up with the Regional
Legal Advisor and Contracts Office on issues identified.

To verify reported results, we selected a random sample of 10 indicators from a universe
of 28 indicators tracked in USAID/West Bank and Gaza’s reporting system for the TVET
Program. We traced reported results for the sample indicators to the implementing
partner’s relevant source documents for FYs 2009 and 2010. We reviewed the
definitions of the indicators and evaluated them to determine if they effectively measured
the impact of program activities.

During site visits, we verified the existence of reported deliverables, verified that the
project site complied with USAID branding requirements, and observed and discussed
the quality of the construction and equipment. We interviewed institution staff, students,
and instructors to gain an understanding of (1) whether the program was meeting their
needs, (2) their experiences in working with the implementing partner and the League,
and (3) their gender policy. We conducted group discussions with more than 100
students, 11 instructors, and 12 staff members. We also ascertained whether
beneficiaries were aware of the source of funding for the projects.




                                                                                       20
                                                                             APPENDIX II 




MANAGEMENT COMMENTS


U. S. Agency for International Development
Embassy of the United States of America


Date:           February 18, 2011

To:             Regional Inspector General, Cairo, Jacqueline Bell

From:           Mission Director, USAID/West Bank and Gaza, Michael T. Harvey /s/

Through:        Deputy Mission Director, Sherry F. Carlin /s/

Subject:        Mission’s comments to the draft performance audit report of USAID/West
                Bank and Gaza’s Technical and Vocational Education and Training
                Program.


USAID/West Bank and Gaza wishes to thank the Regional Inspector General/Cairo for
conducting the performance audit on the Educational Development Office’s (EDO)
Technical and Vocational Education and Training program. The subject draft audit
report has been thoroughly reviewed by the EDO in collaboration with other offices in
the Mission.

The Mission appreciates this opportunity to comment on the draft audit report and clarify
certain comments and statements as the RIG prepares the final report. The draft report
included ten recommendations for further action which we address in the comments
below.

Recommendation No. 1: We recommend that USAID/West Bank and Gaza strengthen
Technical and Vocational Education and Training Program results reporting to ensure
that indicators are effective in measuring goal achievements and that baseline data are
collected to measure impact.

Response: The draft recommendation and audit report focus exclusively on two
indicators which the draft audit report refers to as “impact indicators” (program indicators
number 27 and 28 in Appendix III to the draft report). For these two indicators, mission
management accepts the recommendation. The mission will work with Save the Children
to review the two indicators, revise or replace them as appropriate, and identify baseline
data for the revised or new indicators by April 29, 2011. The baseline data that will be
used will come from data collected for reports done by the program in prior years. Then


                                                                                         21
the TVET program will complete a survey or other appropriate means of data collection
by August 2011 that will allow for a comparison with the selected baseline data to
measure TVET achievements.

Mission management notes, however, that the draft audit report disregards the other
indicators (output indicators) used by the program. USAID uses both output and
outcome indicators (what the draft report refers to as “impact indicators”) to track and
measure results. Both are useful tools. Output indicators provide information on whether
a program is reaching milestones and benchmarks for deliverables under the program’s
control as it progresses. They also serve to document program achievements in real
terms. Particularly through the beginning stages, but throughout the length of a program
as well, output indicators provide valuable information about the progress and
accomplishments of a program.

The TVET program has a Performance Monitoring Plan with 28 indicators. Of these 28
indicators, the program has collected data for 26 of the 28 indicators, the output
indicators. While program implementation was delayed in 2008, data collection began in
2009. Save the Children has been providing results for the 26 indicators via reports
submitted on a quarterly basis throughout the program period and through the mission’s
Geographic Management Information System (GEO-MIS). These indicators show
program achievements to date and demonstrate progress toward program deliverables
through the course of the program. While errors in data collection related to specific
indicators are addressed under Recommendation No. 4 below, the draft audit report fails
to acknowledge the role and usefulness of output indicators and the results reporting that
did take place.


Recommendation No. 2: We recommend that USAID/West Bank and Gaza provide
guidance to agreement/contracting officer’s technical representatives and partners to
establish improved standards for acceptance of work plans and reports, as well as
developing guides for preparing written documents.

Response: The draft audit report makes a recommendation for the entire mission
portfolio based on an audit of a single mission activity, the TVET program. Lack of an
approved work plan for some periods during the TVET program is not indicative of a
pervasive issue with work plans throughout the mission’s portfolio and the audit report
should recognize that an audit sample of one is insufficient grounds for such a broad,
generalized recommendation.

Nevertheless, the Mission will take this opportunity to raise awareness among staff of the
need to ensure that work plans, when required by the terms of the award, are submitted
and reviewed in a timely manner. The Director of the Office of Contracts Management
(DOCM) will issue a reminder to the Mission’s COTRs/AOTRs concerning this matter.
The reminder will refer COTRs/AOTRs to the relevant sections in their respective awards
where standards are identified for the submission of work plans. Furthermore, the
DOCM’s reminder will emphasize to the COTRs/AOTRs their responsibilities as



                                                                                          22
outlined in the designation letters where it specifically notes that “… the COTRs
additional responsibilities are to Monitor the contractor's performance and verify that it
conforms to the technical requirements and quality standards agreed to in the terms and
conditions of the contract. Accordingly, your approval of implementation plans, work
plans, or monitoring or evaluation plans must be consistent with the terms and conditions
of the contract.”

 Finally, Mission Management has directed the DOCM to have a team of senior and
experienced COTRs/AOTRs to lead a training session about work plans and share their
experiences and knowledge with the Mission’s other COTRs/AOTRs. Both this action
and the reminder described above will be completed by April 29, 2011.


Recommendation No. 3: We recommend that USAID/West Bank and Gaza complete a
Performance Monitoring Plan that includes detailed definitions of all Technical and
Vocational Education and Training Program indicators.

Response: The TVET program has a Performance Monitoring Plan (PMP) in place
(submitted on September 15, 2009). The PMP includes 28 indicators that track the
results of the TVET program.

As noted in the response to Recommendation No. 1 above, the mission will be reviewing
and revising or replacing the two indicators identified as number 27 and 28 in Appendix
III of the draft audit report. In addition, the mission will work with Save the Children to
review the wording of the TVET PMP indicators to clarify definitions for the specific
indicators addressed in the draft audit report, as well as any other indicators that the
mission decides are not already sufficiently precise. The Mission will complete this
update to the PMP by April 29, 2011.


Recommendation No. 4: We recommend that USAID/West Bank and Gaza verify and
correct any errors in the reported results data for the Technical and Vocational Education
and Training Program.

Response: Data errors found in the fiscal year 2010 fourth quarter report have been
corrected. USAID will make a request to Save the Children by March 1, 2011 to submit a
plan by April 1, 2011 for the review and correction of prior year reported results which
will be accomplished by September 29, 2011. The AOTR will ensure that future
reporting is free from any errors which the AOTR detects and will require Save the
Children to correct any such errors and re-submit the report.


Recommendation No. 5: We recommend that USAID/West Bank and Gaza revise
Mission Order 21 to include provisions to report violations of the mission’s antiterrorism
requirements to the Mission Director and the Regional Inspector General/Cairo.




                                                                                         23
Response: The substance of the Regional Inspector General’s (RIG’s)
recommendation appears to be a request for notification by the mission when the
mission’s internal compliance reports identify instances of non-compliance by an
award recipient with the terms and conditions of its agreement related to Mission
Order No. 21. As requested, the mission will comply with this recommendation by
notifying the RIG of any instances of non-compliance that it discovers through the
mission’s internal compliance reports as those reports become final. There is no
need, however, to meet this requirement through an amendment to Mission Order No.
21. In addition, the mission’s Office of Contracts Management (OCM) already
provides regular information on the results of its internal compliance reports to the
mission’s management and will continue to do so.

The mission also notes that it was mission management’s decision to voluntarily
institute internal compliance reviews that resulted in the mission’s compliance officer
identifying the failure of Save the Children to vet the landlords of the two leases in
question. In both instances the Agreement Officer took appropriate corrective action.
The corrective action confirmed that no USG resources had gone to anyone
associated with terrorism and resulted in strengthened internal controls by Save the
Children. The two errors made by Save the Children in the first three months of its
award were not repeated. This demonstrates the effectiveness of the Agreement
Officer’s corrective actions and the pro-active approach by mission management to
catch and correct mistakes by its implementing partners.

The mission’s compliance reviews, much like the RIG’s audit regime, are
purposefully not part of Mission Order No. 21. The purpose of Mission Order No. 21
is to set forth USAID’s anti-terrorism procedures (consisting of vetting, an anti-
terrorism certification and mandatory clauses) for assistance to the West Bank and
Gaza. As with other USAID regulations, the procedures themselves do not also
contain the audit, oversight and corrective actions available to a Contracting or
Agreement Officer to manage compliance with the procedures. Audit and oversight
requirements and contractual remedies for non-compliance are not unique to Mission
Order No. 21 compliance. The same range of contractual remedies is available to any
USAID Contracting Officer whenever confronted with instances of non-compliance
with the terms and conditions of an agreement. The fact that the mission identified
and corrected two cases of non-compliance is no more reason to amend Mission
Order No. 21 to insert a reporting requirement than a partner’s failure to comply with
the source, origin, and nationality requirements of its agreement would be reason to
amend 22 CFR 228 to include reporting requirements or potential corrective actions.

Regarding RIG’s recommendation that instances of non-compliance be reported to
the Mission Director, mission management is pleased with the current level of
communication from its Office of Contract Management which provides regular de-
briefings on the summaries of the results of OCM’s internal compliance reviews
(typically provided to the Deputy Mission Director) and believes that no change in
that information flow is necessary at this time. Ultimate responsibility for taking
corrective actions to address non-compliance with the terms and conditions of a



                                                                                          24
USAID agreement properly rests with the cognizant USAID Contracting or
Agreement Officer and the example provided of the two TVET leases provides
evidence that the Agreement Officer’s internal compliance reviews and subsequent
corrective actions are both reasonable and effective. The USAID West Bank and
Gaza Mission Director made a management decision in the Fall of 2007 that the
director of the mission’s Office of Contracts Management should conduct ongoing
compliance reviews of all USAID prime awards rather than wait for the reports from
RIG audits. This proactive step by mission management identifies instances of non-
compliance and corrects them in a timely fashion. The mission’s ongoing voluntary
internal compliance reviews are effective and indicate the seriousness with which the
mission treats compliance with its anti-terrorism procedures.


Recommendation No. 6: We recommend that USAID/West Bank and Gaza determine
the allowability of $117,700 for leases signed by Save the Children under cooperative
agreement no. 294-A-00-07-00210-00 with entities that were not vetted prior to signing
the lease subcontracts and collect from Save the Children any amount determined to be
unallowable.

Response: USAID’s Agreement Officer, who has the sole responsibility for determining
the allowability of costs under an agreement, determines that the $16,063 of Federal
funds contributed to the two Save the Children leases referred to in Recommendation No.
6 is allowable. The remaining amounts obligated and expended under the lease
agreements ($111,837) were not Federal funds and were never subject to an allowability
of cost determination by USAID. The facts supporting the determination follow.

On September 30, 2007, USAID entered into a Cooperative Agreement with Save the
Children. On October 3, 2007, USAID issued its amended and restated Mission Order
No. 21 setting forth its anti-terrorism procedures which include a vetting requirement for
leases and other contracts in excess of $25,000 (cumulative to any single person over a
12-month period).

On November 15, 2007 and January 1, 2008, respectively, Save the Children entered into
the two leases in question. The total amount of the first lease agreement was $88,800 for
a three-year lease term. The total amount of the second lease was $39,100 for a two-year,
ten-month lease term. Noteworthy, this recommendation incorrectly states that the total
amount of the two lease agreements in question is $117,700 whereas the total amount of
the agreements, when signed, was $127,900. Save the Children made payments of
Federal funds under the first lease agreement in the amount of $5,863 and of $10,200
under the second lease (see the table below). Save the Children made a reasonable, but
mistaken, interpretation that since it had not contributed over $25,000 in Federal funds to
either agreement, each lease fell under the $25,000 threshold for which vetting is not
required. The mission addressed this issue along with other questions through training on
its anti-terrorism procedures offered to new and existing award recipients which the
mission provides on an ongoing basis. This training specifically includes the case of
lease agreements.



                                                                                        25
Demonstrating the seriousness with which USAID treats compliance with the
requirements of Mission Order No. 21, the Mission Director in the Fall of 2007 directed
the Office of Contract Management (OCM) to conduct internal compliance reviews of its
prime awardees on a rolling basis and to take corrective actions, as appropriate, to
address instances of non-compliance prior to the annual audits conducted by USAID’s
Inspector General. The compliance reviews began on February 7, 2008 with a purchase
order to an audit firm and continued later with the mission’s own full-time, in-house
compliance specialist taking the lead. On March 18, 2009, a review by the OCM
compliance specialist of the TVET program noted the two lease agreements in question
under the Save the Children cooperative agreement.

After internal review of the compliance specialist’s report, the Agreement Officer took
corrective action by issuing a letter to Save the Children on June 1, 2009 reiterating the
importance of compliance with the requirements of Mission Order No. 21 and requiring
Save the Children to establish internal policies and procedures to ensure compliance and
adequate training. In addition, the Agreement Officer required immediate vetting of the
two landlords and advised that failure to obtain vetting approval for the landlord could
result in termination of the award with Save the Children or disallowance of costs related
to the leases. In both cases, the landlords were vetted and both landlords passed vetting.
The Agreement Officer was satisfied with Save the Children’s responsiveness and the
results of the vetting requests and determined that no further action is needed to either
terminate the award with Save the Children or disallow costs under these lease
agreements. The result of the corrective action not only confirmed that no U.S.
government funds had been inadvertently provided to an ineligible recipient, but also was
an appropriately measured response to a recipient for which there have been no additional
instances of a failure to vet when required since the date of the second lease in January of
2008.


Recommendation No. 7: We recommend that USAID/West Bank and Gaza develop a
plan with milestones to prioritize Technical and Vocational Education and Training
Program activities to maximize the impact of the program during its last year, to include
implementing safety measures as soon as possible and providing for the sustainability of
the Technical and Vocational Education and Training League.

Response: A prioritized plan with clear milestones has been developed for the remaining
months of the program; it is being strictly monitored to ensure that appropriate progress
toward the achievement of goals for all program components and activities is taking
place. A hard copy of this prioritized plan was provided to RIG auditors along with this
memorandum.

The prioritized plan includes a time schedule for the implementation of the safety and
security measures for each participating TVET school. Activities in this area are
underway and include:




                                                                                         26
     A Request For Proposals has been issued to procure personnel protective
      equipment. The target delivery date is in March 2011.
     Representatives from three TVET institutions completed occupational safety and
      security “training of trainers” in Jordan in January 2011.
     Each trained specialist, under the guidance of three experts from Jordan
      Vocational Training Cooperation (VTC) (a Jordanian government-owned
      company), will conduct audits of the safety and security measures within each
      TVET institution. The audit will include auditing the safety policies, procedures
      and systems of the TVET institutions. The experts will write the safety and
      security audit report for each institution, and will conduct safety workshops for
      leadership regarding safety responsibilities. It is expected that the audits will be
      completed on or prior to the end of April 2011.
     The TVET League is working with the Palestinian Red Crescent to establish a
      regular program on first aid training for instructors and trainees (scheduled for
      April-July 2011).

As for sustainability of the Vocational Education and Training (VET) League, the initial
goal has been to establish a role for the VET League in the sector and then to establish it
as an institution representing the twelve private TVET institutions. Establishment of the
VET League as an institution requires formal institution-building measures as well as
capacity building and training for staff. The other main element for long-term
sustainability will be financial independence.

Activities to date have supported the goal of institutional sustainability of the league and
include:

      Registration of the league with the Ministry of Labor and its pending status as a
       Civil Society Organization;
      Capacity training of league staff;
      Development of operations, sub-grant, and personnel manuals;
      Development of a three-year strategic plan for the VET League; and
      Creation of the position of executive director of the VET League to represent the
       common interests of the VET League as an institution rather than the individual
       interests of each league member. The executive director is tasked with
       developing linkages with Palestinian Authority ministries and the private sector
       and seeking funding from donors.

This institutional capacity building will provide a foundation for the VET League to
achieve financial independence in the coming years. The league will seek financial
sustainability after the TVET program is over by relying on annual contributions of
member institutions, revenues from fees for services and participation in annual
exhibitions, as well as sponsorships from the private sector. In addition, as noted above,
the league is in the process of developing proposals to seek funding from a variety of
international donors.



                                                                                          27
Recommendation No. 8: We recommend that USAID/West Bank and Gaza develop
and implement quality standards for accepting implementation plans and policies for
suspension of payments to awardees without approved implementation plans.

Response: As stated above under recommendation No. 2, the draft audit report’s finding
with respect to the TVET program is too small of a sample (a sample of one) to make
such a sweeping, Mission-wide recommendation.

Nevertheless, the director of the mission’s Office of Contracts Management will take this
opportunity to issue a reminder by April 29, 2011 to the Mission’s COTRs and AOTRs
underscoring the need to ensure that the Partners submit their implementation/work plans
on time and in accordance with the terms of their awards. COTRs/AOTRs will be
reminded of the need to review and approve these plans within a reasonable time.
Furthermore, COTRs/AOTRs will be reminded to notify the Agreement/Contracting
Officer when partners are not complying with this requirement.

As for the second half of the recommendation, the mission and its
Agreement/Contracting Officers would consider the lack of an implementation plan,
when required by the terms of the award, a weakness under the award which can
impede the implementation of the program activities and weaken the Mission’s ability
to properly monitor program implementation. That said, there is no basis for the
Agreement/Contracting Officer to suspend payment for lack of submission of work
plans as partners are entitled to receive reimbursement for costs incurred under their
awards for work that has been performed provided that these costs are allocable,
reasonable and allowable under the applicable cost accounting principles and other
terms and conditions included in the award. Therefore, it would be inappropriate to
suspend the costs for late submission or lack of submission of the plans.

Ultimate responsibility for taking corrective actions to address non-compliance with the
terms and conditions of a USAID award properly rests with the cognizant USAID
Contracting or Agreement Officer. The Contracting or Agreement Officer may pursue
any number of avenues to ensure that partners adhere to this requirement. If these fail
and the awardee materially fails to comply with the terms and conditions of an award, the
Contracting or Agreement Officer has a range of remedies including the option to
terminate the award.


Recommendation No. 9: We recommend that USAID/West Bank and Gaza require
Save the Children to obtain gender strategies, including gender targets, from each of the
benefiting Technical and Vocational Education and Training institutions.

Response: The Mission has discussed this recommendation with Save the Children, and
Save the Children has agreed to recommend to the TVET institutions that they adopt
gender strategies. Neither USAID nor Save the Children control the TVET institutions so
the requirement of the recommendation for Save the Children to obtain gender strategies



                                                                                         28
is outside of the manageable control of USAID or Save the Children, but Save the
Children plans to facilitate the intent of the recommendation by including the
development of gender strategies for each TVET institution in a scope of work with a
subcontractor that is working with the VET League to implement the league’s strategy
for each of the TVET institutions. These strategies are known as “whole -center plans.”
This will help ensure that the whole-center plans cover gender issues, including readiness
of the institutions to address gender in institution policies and programming, as well as in
the capacity building of instructors.

Furthermore, the TVET League has already agreed to form a gender committee led by the
YWCA to continue to advocate for and work towards inclusiveness of women in TVET
institutions. Also one of the VET League’s members is an organization known as the
Women’s Affairs Advisory Board. This organization has indicated that it plans to work
on trainings and activities to increase awareness and commitment of VET League
member institutions to gender issues. Save the Children has set aside some funding for
the implementation of the trainings and activities by this organization.


Recommendation No. 10: We recommend that USAID/West Bank and Gaza provide
guidance to its staff to reemphasize the requirements of Automated Directives System
201 to implement a gender strategy in all of its activities.

Response: As previously noted in the Management Comments to recommendation No. 2
and 8 above, the draft audit report again makes a sweeping, Mission-wide
recommendation, based on a sample size of one. The mission notes, however, that while
the ADS remains the primary source of guidance on the Agency’s requirements for
gender analysis and program integration, the Mission is currently working on a mission
order on program planning and design to incorporate the requirements of the new Global
Acquisition and Assistance System (GLAAS). The ADS requirements for gender
analysis will be referenced in this mission order which will meet the recommendation. In
addition, the mission’s Program Office will also reinforce the need for gender strategies
in all activities as part of the process of preparing the mission’s submission to USAID’s
fiscal year 2011 Operational Plan when that becomes due.




                                                                                         29
                                                                                APPENDIX III 





                 LIST OF PROGRAM 

                    INDICATORS 

    1. 	 Number of persons participating in U.S. Government-funded workforce development
         programs*
    2. 	 Number of vocational centers with either upgraded/renovated facilities or developing
         contemporary vocational and technical curricula*
    3. 	 Number of TVET facilities upgraded and/or rehabilitated
    4. 	 Number of TVET workshops or labs upgraded/provided
    5. 	 Number of TVET distance learning courses developed
    6. 	 Number of TVET courses developed/upgraded to increase the enrollment of women
    7. 	 Number of new TVET curricula developed and/or adapted to market demand
    8. 	 Number of TVET youth completing the new livelihood model training (disaggregated by
         gender and disabled)
    9. 	 Number of TVET students completing new apprenticeship programs in the private sector
         (disaggregated by gender and disabled)
    10. Number of TVET instructors trained in new pedagogical methods and/or curricula
    11. Number of TVET counselors trained in career and school-to-career
    12. Number of institutions that received office equipment, technical assistance, and upgraded
         management/financial systems
    13. Number of TVET staff completing institutional management courses
    14. Number of students benefiting from school-to-career courses (disaggregated by gender
         and disabled)
    15. Number of parents/caregivers participating in school-to-career activities
    16. Number of school-to-career awareness activities conducted in schools by TVET students
    17. Number of printed TVET and school-to-career promotional materials (brochures, 

         pamphlets, etc.) distributed to students and community members 

    18. Number of TVET exhibitions held at the national level and school-to-career career days
         held in schools
    19. Number of mass media reports on TVET and school-to-career activities
    20. Number of youth utilizing Career Resource Centers and Corners (disaggregated by
         gender and disabled)
    21. Number of private businesses participating in TVET and school-to-career awareness and
         promotion activities
    22. Number of coordination meetings held between the League and relevant government
         ministries
    23. Number of TVET curricula shared between TVET League and government ministries
    24. Number of youth organizations/clubs involved in promotional activities and events
    25. Number of TVET support events hosted by the TVET League
    26. Number of proposals submitted by the TVET League to various donors
    27. Percentage of employers hosting TVET apprentices who are satisfied to very satisfied**
    28. Percentage of students who are favorable to receive TVET training**

*Indicators that are included in the mission’s operational plan.
**Indicators that measure program impact.




                                                                                              30
                                   APPENDIX IV 




       MAP OF TVET LEAGUE 

          INSTITUTIONS 





Source: USAID/West Bank and Gaza



                                             31
U.S. Agency for International Development 

        Office of Inspector General 

       1300 Pennsylvania Ave., NW 

          Washington, DC 20523 

             Tel: (202) 712-1150 

             Fax: (202) 216-3047 

             www.usaid.gov/oig



                    32 

